      X4~~

A~~~~~~Li.nXt 1
          MEMORANDUM TO THE CHAIRMAN

     On behalf of the Office of the Inspector General (OIG) for the U.S. Nuclear Regulatory Commission
(NRC), I am pleased to submit this SemiannualReport to the U.S. Congress. This report summarizes
significant OIG activities during the period from October 1, 2002, to March 31, 2003, in compliance
with Sections 4 and 5 of the Inspector General Act of 1978, as amended.
     During this reporting period, our office completed 12 performance and financial audits of
NRC's programs and operations. This work led OIG to make numerous recommendations and
suggestions to NRC for program improvement. In addition, OIG completed 23 investigations and 2
Event Inquiries, and made 26 referrals to NRC management. Finally, OIG analyzed seven contract
audit reports issued by the Defense Contract Audit Agency.
     Looking towards the future, OIG has engaged in an update of its strategic plan based in part on
an assessment of the strategic challenges facing NRC. We seek to add value to NRC technical and
administrative programs by aligning our strategic direction with NRC's mission and strategic goals.
     As symbolized by the cover of this publication, this time in the history of the NRC is one
marked by significant safety and security challenges for the agency and its licensees. OIG remains
steadfast in its resolve to continue to work constructively with agency managers in their efforts to
refine the efficiency and effectiveness of responsive agency programs that ultimately protect the
health and safety of the public.
     Finally, I would like to express my appreciation for the collaborative work between my staff
and agency managers to address OIG findings and to implement many of the recommendations made
by my office. I also want to express my appreciation to all OIG staff for their continued profession-
alism, dedication, and willingness to accept new challenges.


                                                     Sincerely,


                                                     Hubert T. Bell
                                                CONTENTS
Executive Summary .........................................                                                                    v
The Office of the Inspector General...................................................................................1
    Organization and Functions of NRC's OIG .........................................2
    About NRC ........................................                                                                         3
The Audit Program........................................                                                                      5
    Audit Summaries ........................................                                                                   5
    Audits in Progress ........................................                                                              12
The Investigative Program........................................                                                            17
    Investigative Case Summaries .........................................                     ;                             17
    Investigative Statistics ........................................                                                        20
Other Activities........................................                                                                     23
    Regulatory Review ........................................                                                               23
    NRC QIG Strategic Plan ........................................                                                          24
    PCIE/ECIE Award of Excellence for Administrative Support ........................................                        25
Appendices.................................................................................................................... 27
    Audit Ustings ........................................                                                                   27
    Audit Tables ........................................                                                                    29
    Abbreviations............................................................................................................ 31
    Reporting Requirements Index ........................................                                                    32




October 1,2002 - March 31, 2003                                                                                                 iii
iv   NRC 0IG Semiannual Report
                              EXECUTIVE SUMMARY
    The following two sections highlight selected audits and investigations completed during this
reportingperiod. More detailed summaries appear in subsequentsections of this report.


AUDITS                                                        Further, it states that this report shall include
                                                              a statement prepared by an agency's Inspector
*    On January 24, 2000, Congress enacted the                General that (1) summarizes what the
     Reports ConsolidationAct of 2000 that, in                Inspector General considers to be the most
     part, required Federal agencies to provide an            serious management and performance chal-
     annual report that would consolidate finan-              lenges facing the agency and (2) briefly
     cial and performance management informa-                 assesses the agency's progress in addressing
     tion in a more meaningful and useful format              those challenges. This year, OIG identified
     for Congress, the President, and the public.             nine management challenges for the NRC.
                                                                                        (continued on next page)


                    MAGEMENT CHALLENGES FACING THE NRC
                   C's;0t:Mst
                 NRi:-:    il iSerios Ma:a ement Challenitesi
                                                           asofNovember
                                                                   i                      200     0i    :   -   :



    Challenge 1                                          Challenge 6
    Protection of nuclear material and facilities used   Intra-agency communication (up, down, and across
    for civilian purposes.                               organizational lines).
    Challenge 2                                          Challenge 7
    Development and implementation of an appropriate     Integration of regulatory processes in a changing
    risk-informed and performance-based regulatory       external environment.
    oversight approach.
    Challenge 3                                          Challenge 8
    Acquisition and implementation of information        Maintenance of a highly competent staff
    resources.                                           (i.e., human capital management).
    Challenge 4                                          Challenge 9
    Administration of all aspects of financial           Protection of information.
    management.
    Challenge S         -5                                     The challenges are not ranked in any order
    Clear and balanced communication with external       7v    of importance.
    stakeholders.




October 1,2002 -March 31, 2003                                                                                      v
                                                                                                    I        I




Executive Summary (continued)


*    The OIG engaged an independent contrac-              reached this conclusion because manage-
     tor, International Survey Research, to               ment did not identify managerial cost
     conduct a survey of NRC's workforce to               accounting as a material weakness.
     (1) measure NRC's safety culture and
     climate, (2) compare results against NRC's           The auditors identified three new reportable
     1998 Safety Culture and Climate Survey,              conditions concerning cost accounting
     and (3) compare results to Government and            implementation, accounting for internal use
     national benchmarks. The study included a            software monitoring, and external reporting
     qualitative design phase, where a random             of financial information.
     sample of NRC employees and managers
                                                          The auditors also identified three
     were interviewed, and a quantitative compo-
     nent consisting of a survey offered to all           noncompliances with laws and regulations:
                                                          (1) NRC did not comply with Executive
     NRC employees.
                                                          Order 13103, Computer Software Piracy,
     The survey generally concluded that the              (2) NRC's 10 Code of Federal Regulations
     NRC safety culture and climate appears to            (CFR) Part 170 license fee rates are not based
     be improving. Specifically, the workforce            on full cost, and (3) NRC is in substantial non-
     views itself as effective and dedicated to the       compliance with the Federal Financial Man-
     NRC safety mission. Comparison with the              agement Improvement Act of 1996.
     1998 survey results also indicates improve-
                                                      a   OIG conducted an audit in each of NRC's
     ment in virtually every category or topical
                                                          four regional offices to assess a wide range
     area. Further, the survey found that most
                                                          of regional technical and administrative
     scores exceed established national bench-
     marks for Government research and technical          activities. In addition to a separate report
                                                          for each office audited, OIG developed a
     composites.
                                                          summary report to headquarters concerning
     However, the survey did reflect that two             the impact of the regional findings.
     program support offices will require sub-
                                                          NRC's regional offices constitute the agency's
     stantial effort to improve organizational
                                                          front line in carrying out its mission and
     culture and climate.
                                                          implementing established agency policies
e    The Chief Financial Officers Act requires            and programs nationwide. NRC regulates
     the OIG annually to audit NRC's Principal            104 licensed nuclear power plants that
     Financial Statements. An independent public          supply about 20 percent of the Nation's
     accounting firm, under contract to OIG,              electricity needs.
     conducted the audit.
                                                          Regions monitor their performance using
     The independent auditors issued an unquali-          their regional operating plans that identify
     fied opinion on the balance sheet and the            specific performance measures, or metrics,
     statements of changes in net position, net           which the regions strive to accomplish. The
     cost, budgetary resources, and financing.            regions report their metric data to headquarters
                                                          in quarterly updates to their operating plans.
     In the report on management's assertion
     about the effectiveness of internal controls,        OIG found that the regional operating plan
     the auditors concluded that management's             metrics and results reported against those
     assertion is not fairly stated. The auditors         metrics were not consistently valid or reliable.

vi                                                                             NRC OIG Semiannual Report
    The consistency and quality of data varied           operating until February 16, 2002, without
    widely from region to region. As a result, the       performing vessel head penetration nozzle
    usefulness of this information for decision          inspections was driven in large part by a
    making at the regional or headquarters levels        desire to lessen the financial impact on the
    is limited, and comparison among regions is          licensee that would result from an earlier
    often not possible. Quality control and              shutdown. In addition, OIG found that NRC
    assurance has not been built into the process        staff were reluctant to take regulatory action
    of developing, compiling, reviewing, and             against a licensee absent absolute proof of a
    reporting regional metrics. Because the              problem, despite strong indications that
    agency's emphasis to date has been on                DBNPS did not comply with NRC
    public health and safety metrics, regional           regulations and plant technical specifications
    administrative metrics have received limited         and may have operated with reduced safety
    review by headquarters officials. By                 margins.
    exercising only limited oversight of the
    regions' administrative metrics, headquarters    *   OIG completed an inquiry concerning the
    is missing an opportunity to improve                 reported loss of two spent nuclear fuel rods
    performance assessment for regional                  at Millstone Nuclear Power Station Unit 1.
    management and support functions.                    In November 2000, the NRC license holder
                                                         for Millstone Northeast Nuclear Energy
    Management controls need improvement in              Company discovered it could not locate two
    the areas of continuity planning and protec-         spent fuel rods which were last accounted
    tion of sensitive information. The summary           for in 1978. As a result of this investigation,
    report also identified regional best practices       OIG found that the missing fuel rods were
    that should be considered for adoption by            last accounted for during a 1978 Material
    the other regional offices.                          Control and Accountability (MC&A) inspec-
                                                         tion conducted by the NRC. The fuel rods
                                                         were no longer present in the inventory
INVESTIGATIONS                                           when the NRC conducted the next MC&A
                                                         inspection in 1982. OIG determined that the
*   OIG completed an inquiry into concerns               NRC inspector did not identify the loss
    regarding a perceived lack of NRC oversight          of these fuel rods in the 1982 inspection
    of the Davis-Besse Nuclear Power Station             because he relied on an inaccurate beginning
    (DBNPS). NRC Bulletin 2001-01 sought                 inventory provided by the licensee. The
    to have licensees shut down and perform              OIG also determined that the last MC&A
    inspections by December 31, 2001, on plants          inspection conducted at Millstone was in
    identified as being highly susceptible to             1982 and that the NRC ended the MC&A
    vessel head penetration nozzle cracking.             inspection program for all nuclear power
    It was alleged that NRC allowed DBNPS to             plants in 1988.
    continue operating until February 16, 2002,
    without performing those inspections despite     *   OIG conducted an investigation into
    indications of significant cracking to the           allegations that NRC and Department of
    reactor vessel head.                                 Energy (DOE) representatives conducted
                                                         private meetings concerning the proposed
    As a result of this inquiry, OIG found that          Yucca Mountain Repository which, contrary
    NRC's decision to allow DBNPS to continue                                    (continued on next page)
                                                                                                      vii
October 1,2002 - March 31,2003
        1,2002-March   3, 2003                                                                         vii
                                                                                            I




       to NRC regulatory and policy mandates,         prohibited communications which excluded
       excluded Nevada State representatives and      Nevada State representatives and the public.
       members of the public. It was alleged that     OIG found that the pre-licensing
       these private meetings violated restrictions   communications between the NRC and DOE
       placed on pre-licensing communications         representatives occurred during informal
       between NRC and a potential licensee.          meetings which were in accordance with the
                                                      pre-licensing phase of the application
       As a result of this investigation, OIG         process and were consistent with NRC
       determined that the NRC staff and DOE          regulatory requirements and policy
       representatives were not involved in           mandates.




                                                                         NRC OIG Semiannual Report
viii
v;i                                                                      NRC OIG Semiannual Report
      THE OFFICE OF THE INSPECTOR GENERAL
     Nearly 25 years ago, in October 1978, the             independence, foster coordination, or detect
Congress enacted and the President signed the              patterns of abuse across agency programs. The
Inspector General (IG) Act, creating                       IG Act essentially centralized and elevated the
independent audit and investigative offices in 12          audit and investigative organization under an
Federal agencies. The IG Act established a                 Inspector General, ensuring an independent
framework to foster accountability and integrity           voice to the agency head, the Congress, and the
in Government. Before its implementation,                  public, as well as the agency managers who act
auditors and investigators were frequently                 on IG recommendations. The IG Act has been
scattered across the programs they were charged            amended several times over the years to add
with reviewing, making it difficult to ensure                                             (continued on next page)



                                            I
                                                                     44,




Inspector General Hubert T Bell (third from right) presents a plaque to departing Chairman Richard A. Meserve
(third from left) in appreciation of his support to the mission of the Office of the Inspector General. Also in the
photograph are George A. Mulley, Senior Level Assistant for Investigative Operations (for left), Stephen D.
Dingbaum, Assistant Inspector General for Audits (second from left), Maryann L Grodin, General Counsel to the
Inspector General (second from right), and David C. Lee, Deputy Inspector General (far right).

October 1,2002-March 31, 2003                                                                                         I
The Office of the InspectorGeneral (continued)


new IGs and clarify reporting requirements.        management, and validating agency
Today, 57 Offices of Inspector General provide     performance and accountability measures are
oversight for 59 Federal agencies.                 among the key tasks facing the Nation's
                                                   Inspectors General today. These tasks have
     Inspectors General have two basic roles-      emerged as a result of priorities established by
to independently find and report on current        the President, the Congress, and, more recently,
problems and to foster good program                threats against our homeland. These priorities
management to prevent future problems.             differ sharply from those faced by the newly
Inspectors General meet their specific statutory   formed IG offices nearly 25 years ago.
mission by:
*   Conducting and supervising audits and               In the case of the NRC, Congress
                                                   established an independent OIG through a 1988
    investigations relating to the programs and
                                                   amendment to the IG Act. Today, OIG's
    operations of their agencies.
                                                   primary mission is to assist NRC by ensuring
•   Reviewing existing and proposed legislation    integrity, efficiency, and accountability in the
    and regulations relating to the programs and   agency's programs to regulate the civilian use of
    operations of their agencies.                  byproduct, source, and special nuclear materials
                                                   in a manner that adequately protects the health
*   Providing leadership for activities designed   and safety of the public, as well as the
    to promote economy, effectiveness, and
                                                   environment, while promoting the Nation's
    efficiency and to promote efforts to reduce
                                                   common defense and security. In Fiscal Year
    fraud, waste, and abuse in their agencies'
                                                   (FY) 2003, the NRC's total budget authority is
    programs.
                                                   $578 million, which includes an appropriation
*   Informing their agency heads and the           of $6.8 million for OIG.
    Congress of problems in their agencies'
    programs and operations, the need for
    corrective actions, and progress in            ORGANIZABON AND.
    implementing those corrective actions.         FUNC17ONS OF NRCS QIG
      The Office of the Inpector General
                                                         NRC's OIG includes auditors, criminal
community is charged with being a significant,
                                                   investigators, legal counsel, and a resource
positive force for improving the economy,
                                                   management and operations support (RMOS)
efficiency, and effectiveness of Federal
                                                   staff. OIG's audit program is designed to provide
programs and operations and for preventing and
                                                   assurance to the Chairman and to Congress that
detecting fraud, waste, abuse, and
                                                   NRC programs and operations are working
mismanagement. Offices of the Inpector
                                                   efficiently and effectively. Consequently, the audit
General account for billions in saved and
                                                   staff conducts performance and financial audits, as
recovered Federal funds, as well as thousands of
                                                   well as special evaluations. Performance audits
prosecutions, civil and personnel actions, and
suspensions and debarments of businesses and       focus on NRC's administrative and programmatic
                                                   operations. Financial audits focus on NRC's
individuals for wrongdoing.
                                                   internal control systems, transaction processing,
     Helping to fight terrorism, evaluating the    and financial systems. In special evaluations, OIG
Nation's critical infrastructure, striving to      auditors present OIG perspectives or information
improve the Government's financial                 on specific topics.

                                                                           NRC OIG Semiannual Report
2                                                                          NRC 01G Semiannual Report
      The mission of QIG's investigative             planning activities, and performs a variety of
program is to perform investigative activities       other support functions.
related to the integrity of NRC's programs and
operations. The majority of OIG's
investigations focus on violations of law or         ABOUT NRC
misconduct by NRC employees and contractors,
as well as allegations of irregularities or abuses   Mission
in NRC programs and operations. As a
complement to the investigative function, the              NRC's mission is to regulate the Nation's
investigative staff also conducts Event Inquiries,   civilian use of byproduct, source, and special
which yield reports documenting the                  nuclear materials to ensure adequate protection
examination of events or agency regulatory           of public health and safety, promote the
actions that do not specifically involve             common defense and security, and protect the
individual misconduct. Instead, these reports        environment. NRC's scope of responsibility
identify staff actions that may have contributed     includes regulation of commercial nuclear
to the occurrence of an event. In addition, the      power plants; research, test, and training
OIG investigative staff periodically performs        reactors; fuel cycle facilities; medical,
root cause analyses and implements other             academic, and industrial uses of nuclear
preventive initiatives such as integrity             materials; and the transport, storage, and
awareness training.                                  disposal of nuclear materials and waste.
      0IG's General Counsel (GC) provides
independent legal advice on issues concerning        Statutory Authority
criminal law and procedures, evidence, and                 NRC was created as an independent agency
constitutional law as they relate to 0IG's           by the Energy Reorganization Act of 1974,
investigative program. The GC also develops          which abolished the Atomic Energy
legal interpretations of appropriations law,         Commission and moved its regulatory function
financial management statutes and regulations,
                                                     to NRC. This act, along with the Atomic
and procurement and funding rules in support of
0IG's audit program. In addition, the GC             Energy Act of 1954, as amended, provides the
conducts and coordinates, with other cognizant       statutory foundation for regulation of the
OIG staff, in-depth reviews of existing and          Nation's nuclear power industry. NRC
proposed legislation, regulations, and agency        regulations are issued under the United States
directives that affect NRC programs and              Code ofFederalRegulationsTitle 10, Chapter 1.
operations and, as appropriate, provides written
comments. The intent of these reviews is to          Major Activities
assist the agency in prospectively identifying
and preventing potential problems.                        NRC fulfills its responsibilities through a
                                                     system of licensing and regulatory activities that
     The RMOS staff formulates and executes          include the following:
the OIG budget, prepares 01G's Semiannual
Report to Congress, operates an independent              Licensing the design, construction, operation,
personnel program, administers the control of            and-decommissioning of nuclear plants and
OIG funds, administers 0IG's information                 other nuclear facilities, such as nuclear fuel
technology programs, coordinates strategic                                       (continued on next page)


                                                                                                          3
October 1,2002 -March 31,2003
October 1,2002-March  31, 2003                                                                            3
The Office of the Inspector General (continued)


    cycle facilities, uranium enrichment facilities,       environmental concern, common defense
    and test and research reactors.                        and security, and antitrust matters.

*   Licensing the possession, use, processing,         *   Developing effective working relationships
    handling, and exporting of nuclear materials.          with the States regarding reactor operations
                                                           and the regulation of nuclear material.
*   Licensing the siting, design, construction,
    operation, and closure of low-level                *   Developing policy and providing direction
    radioactive waste disposal sites under NRC             on issues involving security at nuclear
    jurisdiction and the construction, operation,          facilities interfacing with other Federal
    and closure of geologic repositories for               agencies, including the Office of Homeland
    high-level radioactive waste.                          Security, on safety and security issues, and
                                                           developing and directing the NRC program
*   Licensing the operators of civilian nuclear            for response to incidents.
    reactors.
                                                       *   Collecting, analyzing, and disseminating
*   Inspecting licensed and certified facilities           information about the operational safety of
    and activities.                                        commercial nuclear power reactors and
                                                           certain nonreactor activities.
*   Certifying privatized uranium enrichment
    facilities.                                        Organization
                                                            NRC's Commission is composed of five
*   Conducting research on light-water reactor         members, with one member designated by the
    safety to gain independent expertise and           President to serve as Chairman. Each member is
    information for making timely regulatory           appointed by the President, with the advice and
    judgments and for anticipating problems of         consent of the Senate, and serves a term of 5 years.
    potential safety significance.                     Members' terms are staggered so that one
                                                       Commissioner's term expires on June 306 of every
*   Developing and implementing rules and              year. No more than three members of the
    regulations that govern licensed nuclear           Commission can be from the same political party.
    activities.
                                                            The NRC staff numbers approximately
*   Investigating nuclear incidents and                2,900, with roughly two-thirds of the employees
    allegations concerning any matter regulated        working at the agency's headquarters in
    by NRC.                                            Rockville, Maryland. The remainder are
                                                       primarily located in four regional offices
*   Enforcing NRC regulations and the                  and at resident inspector offices at each
    conditions of NRC licenses.                        commercial nuclear power plant and some
                                                       fuel cycle facilities.
*   Conducting public hearings on matters of
    nuclear and radiological safety,




                                                                               NRC 010 Semiannual Report
4                                                                              NRC 01G Sernionnuol Report
                          THE AUDIT PROGRAM
    To help the agency improve its effectiveness during this period, OIG completed 12 performance
andfinancialaudits, which resulted in a number of recommendations and suggestions to NRC
management. n addition, OIG analyzed seven contractauditreports issued by the U.S. Defense
ContractAudit Agency (DCAA).


AUDIT SUMMARIES                                          In addition, the survey also found that
                                                     Continuous Improvement Commitment, that is,
                                                     employees' views on commitment to public
OIG's 2002 Survey of NRC's                           safety and whether employees are encouraged to
Safety Cultureand Climate                            communicate ideas to improve safety,
                                                     regulations, and operations, is below norm and a
     The OIG engaged an independent
                                                     matter of concern. Empowerment,
contractor, International Survey Research,
                                                     Communication, QualityFocus, Management
to conduct a survey of NRC's workforce to
                                                     Leadership, and OrganizationalCommitment
(1) measure NRC's safety culture and climate,
                                                     were determined to be areas requiring additional
(2) compare results against NRC's 1998 Safety
                                                     management focus.
Culture and Climate Survey, and (3) compare
results to Government and national benchmarks.              As a counterpoint, dramatic improvement
The study included a qualitative design phase,       was demonstrated in the category, Future of the
where a random sample of NRC employees and           NRC, which focuses on items that evaluate
managers were interviewed, and a quantitative        employee's views on how NRC's regulation of
component consisting of a survey offered to all      its licensees has changed in the past year and
NRC employees.                                       will change in the future. That is, the way
                                                     people are managed day to day, communication,
      The survey generally concluded that the
NRC safety culture and climate appears to be         the quality of work produced, productivity, the
                                                     public image of the agency, and the NRC as a
improving. Specifically, the workforce views
                                                     whole. The survey concluded that improvement
itself as effective and dedicated to the NRC
                                                     in these topics can positively impact issues
safety mission. Comparison with the 1998
                                                     gauged in the category Continuous improvement
survey results also indicates improvement in
                                                     Commitment. (Addresses All Management
virtually every category or topical area. Further,
                                                     Challenges)
the survey found that most scores exceed
established national benchmarks for Government
research and technical composites.                   Review of NRC's Handling and Marking of
                                                     Sensitive Unclassified Information
     However, the survey did reflect that two
program support offices will require substantial          OIG received a congressional request to
effort to improve organizational culture and         review the adequacy of NRC's programs for
climate.                                             handling and releasing sensitive documents, as a
                                                                               (continued on next page)

                                                                                                     5
Odtberer 1,2002-March
October 1,             31,2003
           2002 -March 31, 2003                                                                      5
The Audit Program (continued)


result of preliminary draft of the                      Minimum Requirements for Handling Sensitive
                                                        Unclassified nformatlon
Yucca Mountain Review Plan was                          U.S. Nudear Regulatory Commisson
inadvertently released to the public in
September 2000. The draft plan                                  =                --                 -     .amum
                                                                                                          W__
provided guidance on evaluating a
license application for a geological                     nam        WM                              WO    gm    O

repository for spent nuclear fuel. As                     -:        fti       ___5              _                      -rad
a predecisional document, the draft                             -   Wo in
plan was an Official Use Only                                   O   6Fiu
                                                                       MP                   ~       ~u
document and should have been
                                                                                                               00TOM
treated as sensitive unclassified                   -
                                                        "'Alv             P          t   0110MS"


information protected from public
disclosure until Commission approval          a-
was granted. Official Use Only
information is one category of                ^
sensitive unclassified information
that includes predecisional
documents and information protected
from public disclosure until certain conditions                     knowledge about NRC's requirements and
are met.                                                            guidance in this area.

     While most of NRC's documents are                           OIG also found that NRC employees are
released to the public, NRC has a program and              not consistently implementing the requirement
guidance to prevent the public release of                  to report incidents of inadvertent release of
sensitive unclassified information. However,               sensitive unclassified information to the Office
OIG found that the guidance does not                       of the Executive Director for Operations. This
adequately protect Official Use Only documents             practice would allow for the identification of
from inadvertent public disclosure.                        systemic problems and the application of best
Specifically:                                              practices agency-wide. The agency is taking
                                                           corrective actions to address these issues.
*   Cover sheet use with Official Use Only                 (Addresses Management Challenge #9)
    information is left to the discretion of the
    document originator.                                   Memorandum Report: InspectorGeneral's
*   Individual pages of documents are not                  Assessment of the Most Serious Management
    always marked and are vulnerable to public             Challenges
    disclosure if separated from the cover sheet.
                                                                On January 24, 2000, Congress enacted the
*   Sensitive unclassified documents are not               Reports ConsolidationAct of 2000 which
    marked consistently.                                   requires Federal agencies to provide an annual
                                                           report that would consolidate financial and
*   Training on handling, marking, and                     performance management information in a more
    protecting sensitive unclassified information          meaningful and useful format for Congress, the
    is not provided to all NRC employees and               President, and the public. Included in the act is
    contractors on a regular basis.                        the requirement that the report include a
    Consequently, many staff members lack                  statement from the Inspector General that
                                                                                                     NRC OIG Semiannual Report
6                                                                                                    NRC 01G Semiannual Report
summarizes what the Inspector General                     The agency is studying new performance
considers to be the most serious management               indicators to see if it can establish an even
and performance challenges facing the agency              better connection to risk. NRC is also
and briefly assess the agency's progress in               seeking performance indicators that will
addressing those challenges.                              help predict emergent problems and thereby
                                                          permit their avoidance, rather than to apply
     Congress left the determination and                  performance indicators that merely confirm
threshold of what constitutes a most serious              existing problems.
management challenge to the discretion of the
Inspectors General. As a result, OIG applied the      *   CHALLENGE 3 -Acquisition and
following definition: Serious management                  implementation of information resources.
challengesare mission criticalareasor
programs that have potentialfor a perennial               The agency has made strides in this area but
weakness or vulnerability that, without                   other improvements are needed. To remedy
substantial managementattention, would                    some of the deficiencies in the agency's
seriously impact agency operationsor strategic            electronic recordkeeping system, NRC has
goals.                                                    planned updates for the system.

      The most serious management challenges              The agency launched the Electronic
facing NRC may be, but are not necessarily,               Information Exchange production system
areas that are problematic for the agency. The            and is developing an Electronic Information
challenges, as identified, represent critical areas       Exchange rule that will allow NRC licensees
or difficult tasks that warrant high-level                and others to electronically submit almost all
management attention. This year, QIG                      documents and data via this exchange
identified nine management challenges                     system as well as by CD-ROM, e-mail, and
considered to be the most serious. (Addresses             fax.
All Management Challenges)
                                                      *   CHALLENGE 4-Administration of all
*   CHALLENGE 1- Protection of nuclear                    aspects of financial management.
    material and facilities used for civilian
    purposes.                                             NRC received an unqualified opinion on its
                                                          financial statements for the eighth
    NRC has developed a new Threat Advisory               consecutive year during FY 2001. While
    and Protective Measures System in response            progress has been made to tighten controls
    to Homeland Security Presidential                     over financial management processes,
    Directive-3. NRC also established the                 further improvements are needed. During
    Office of Nuclear Security and Incident               the first quarter of FY 2002, NRC
    Response. The office is intended to                   implemented the human resources, payroll,
    consolidate security, safeguards, and                 and time and labor modules of the Human
    emergency response into one area.                     Resources Management System as a step
                                                          toward its goal of a fully integrated financial
a   CHALLENGE 2 -Development and                          management system.
    implementation of an appropriate risk-
    informed and performance-based regulatory         *   CHALLENGE 5- Clear and balanced
    oversight approach.                                   communication with external stakeholders.
                                                                                  (continued on next page)
                                                                                                          7
        1,2002-March
October 1,           31,2003
          2002-March 3, 2003                                                                              7
The Audit Program (continued)


    The agency made improvements in the                 However, staff continues to monitor
    quality, clarity, and credibility of its            experience and feedback from the current
    communications with all stakeholders.               oversight processes and will consider further
    Initiatives include the development of:             study should significant changes occur in the
    (1) communication plans to improve                  industry.
    interactions with internal and external
    stakeholders on important projects and          *   CHALLENGE 8- Maintenance of a
    events, (2) a redesigned Web site to provide        highly competent staff (i.e., human capital
    a richer variety of information, (3) formal         management).
    training courses to provide NRC staff with
                                                        NRC is undertaking a significant effort to
    the necessary skills, and (4) newsletters for
                                                        develop administrative processes and to
    highly visible topics.
                                                        standardize its strategic workforce planning
*   CHALLENGE 6- Intra-agency                           initiative. Actions include developing and
    communication (up, down, and across                 implementing a Strategic Workforce
    organizational lines).                              Planning Communication Plan and
                                                        integrating strategic workforce planning into
    NRC has improved its internal                       the Planning, Budgeting, and Performance
    communications over the past year. Actions          Management process for the FY 2004
    taken include (1) the continuing use of the         budget By FY 2004, NRC plans to have a
    electronic "EDO Updates," a new type of             fully integrated process and an automated
    communication between the Executive                 skills database to support human capital
    Director for Operations and the entire staff;       management throughout the agency.
    (2) a new link on the internal Web, which
    includes step-by-step instructions for how to   *   CHALLENGE 9-          Protection
    create communication plans and instructions         of information.
    on conducting public meetings, and (3) a
                                                        This is a new management challenge for the
    communications bulletin for managers and
                                                        agency. NRC has made efforts to strengthen
    supervisors that is issued twice a month to
                                                        information protection. Agency actions
    help managers communicate better both
                                                        taken included adding additional barriers
    within and between departments.
                                                        and warning messages to the document
*   CHALLENGE 7- Integration of                         management system to prevent the release of
    regulatory processes in a changing external         sensitive documents or packages.
    environment.                                        Additionally, a sensitivity warning message
                                                        is shown at the bottom of every page on the
    An NRC working group identified and                 agency's internal Web site to serve as a
    assessed the possible effects of nuclear            reminder that sensitive information should
    industry consolidation on NRC's oversight           not be made publicly available.
    functions and responsibilities. The group
    concluded that the existing NRC organiza-           In the area of information security, despite
    tional structure, policies, guidance, and           some progress, the agency's program is not
    regulations are adequate at this time.              well integrated or consistently implemented
                                                        across the agency.



                                                                            NRC QIG Semiannual Report
8                                                                           NRC 01G Semiannual Report
               1~~~~~~~~~-                                 -




Results of the Audit of the U.S. Nuclear            (FFMIA). The specific issue related to FFMIA
Regulatory Commission's FiscalYear 2002             is that managerial cost accounting was
FinancialStatements                                 implemented, but did not meet Federal
                                                    accounting and systems requirements.
     The Chief Financial Officers Act requires      (Addresses ManagementChallenge#4)
OIG annually to audit NRC's Principal
Financial Statements. An independent public         Memorandum Report - Review ofNRC's
accounting firm, under contract to OIG,             Implementation of the FederalManagers'
conducted the audit for FY 2002. Their report
                                                    FinancialIntegrityActfor Fiscal Year 2002
contains (1) the principal statements and the
auditor's opinion on those statements, (2) the           The Federal Managers' Financial Integrity
auditor's opinion on management's assertion         Act (FMFIA) was enacted on September 8,
about the effectiveness of internal controls, and   1982, in response to continuing disclosures of
(3) a report on NRC's compliance with laws and      waste, loss, unauthorized use, and
regulations.                                        misappropriation of funds or assets associated
                                                    with weak internal controls and accounting
     The independent auditors issued an
                                                    systems. Congress felt such abuses hampered
unqualified opinion on the balance sheet and the
                                                    the effectiveness and accountability of the
statements of changes in net position, net cost,
budgetary resources, and financing.                 Federal Government and eroded the public's
                                                    confidence. The FMFIA requires Federal
     In the report on management's assertion        managers to establish a continuous process for
about the effectiveness of internal controls, the   evaluating, improving, and reporting on the
auditors concluded that management's assertion      internal controls and accounting systems for
is not fairly stated. The auditors reached this     which they are responsible.
conclusion because management did not
                                                          FMFIA requires the head of each executive
identify managerial cost accounting as a
                                                    agency subject to the FMFIA to submit a report
material weakness.
                                                    to the President and Congress each year on the
     The auditors identified three new              status of management controls and financial
reportable conditions and closed one prior-year     systems that protect the integrity of agency
reportable condition. The new conditions            programs and administrative activities. NRC
concern cost accounting implementation,             makes its FMFLA assessment and report in its
accounting for internal use software monitoring,    annual PerfiormanceandAccountability Report.
and external reporting of financial information.
                                                         OIG reviewed NRC's compliance with
     The report on NRC's compliance with laws       FMFIA for FY 2002 and found that NRC
and regulations disclosed three noncompliances.     complied with its requirements. Although NRC
The first is that NRC did not comply with           is not reporting any material weaknesses, OIG
Executive Order 13103, Computer Software            reported one material weakness: NRC's
Piracy. The second is that NRC's 10 CFR Part        managerial cost accounting process does not
170 license fee rates are not based on full cost,   meet Federal requirements. The agency has
and the third is that NRC is in substantial non-    recognized this issue as a significant, but not
compliance with the Federal Financial               material weakness.
Management Improvement Act of 1996                                            (continued on next page)

                                                                                                     9
        1,2002-March
October 1,            31,2003
          2002 -March 31, 2003                                                                       9
The Audit Program (continued)


     OIG first reported the lack of managerial       equivalent positions and $104.4 million to
cost accounting as a material weakness in the        support regional operations.
FY 1998 reports on FMFIA and the agency's
financial statements. NRC is actively pursuing             These reports reflect the results of 010's
a resolution to this issue. Although NRC             reviews to assess a wide range of regional
implemented a cost accounting process and            technical and administrative activities in each of
system at the end of FY 2002, the system does        the four regions. Regions monitor performance
not meet Federal accounting standards and            using their operating plans that identify specific
requirements for management information              performance measures, or metrics, which the
systems. The new system does not (1) address         regions strive to accomplish. The regions report
the uses of cost accounting as espoused in           their metric data to headquarters in quarterly
Statement of Federal Financial Accounting            updates to their operating plans. While regional
Standards No. 4, ManagerialCost Accounting           public health and safety metrics were generally
Standards, or (2) contain the internal system        found to be valid and reliable, the administrative
controls required by the Federal Government's        metrics were not. Regional action is needed to
Joint Financial Management Improvement               improve (1) the validity and reliability of all
Program.                                             metrics and reported results and (2)
                                                     management controls in several administrative
     OIG will continue to report this issue as a     areas including facilities management,
material weakness until NRC successfully             information management, and communication.
implements managerial cost accounting.               Improved metrics will better enable the regional
(Addresses ManagementChallenge #4)                   offices to evaluate their performance in specific
                                                     technical and administrative areas.
ManagementAudits of NRC's
                                                           OIG also conducted interviews with reactor
FourRegional Offices                                 site-based inspectors and region-based
     NRC has four regional offices located in        inspectors and technical staff. The purpose of
King of Prussia, Pennsylvania (Region I);            the interviews was to gain information for
Atlanta, Georgia (Region ); Lisle, Illinois          evaluating regional management's support for
(Region III); and Arlington, Texas (Region IV).      the full range of regional activities. Overall, the
Each regional office operates under the direction    inspectors and technical staff indicated they are
of a Regional Administrator. The regional            able to perform their responsibilities and are
offices constitute the agency's front line in        generally satisfied with regional office
carrying out its mission and implementing            management support. However, the inspectors
established agency policies and programs             and technical staff raised specific issues
nationwide.                                          concerning NRC operations. Many of these
                                                     issues will be included in future audits.
     NRC regulates 104 licensed nuclear power        (Addresses All Management Challenges)
plants that supply about 20 percent of the
Nation's electricity needs. The agency also          HeadquartersAction Needed on Issues
regulates about 4,900 licenses that use              Identifiedfrom RegionalAudits
radioactive materials for industrial, medical, and
academic purposes. NRC regional offices                   OIG found that the regional operating plan
regulate about 4,700 of these licenses. For FY       metrics and results reported against those
2002, NRC's regional offices had 784 full-time       metrics were not consistently valid or reliable.

                                                                             NRC (JIG Semiannual Report
10
10                                                                           NRC OJG Semiannual Report
The consistency and quality of data varied           e-mail provides benefits for businesses, it also
widely from region to region. As a result, the       poses risks. For example, important e-mail
usefulness of this information for decision          correspondence is not always preserved, which
making at the regional or headquarters levels is     may cause records management problems.
limited, and comparison among regions is often       Inappropriate employee use is another risk when
not possible. Because operating plans are            employees access an organization's e-mail
continuing to evolve and administrative metrics      system for personal use.
are a recent addition, quality control and
assurance has not been built into the process of           OIG found that NRC management officials
developing, compiling, reviewing, and reporting      have not implemented adequate controls for
regional metrics. Additionally, the agency's         ensuring that appropriate e-mail records become
emphasis to date has been on public health and       official agency records. Specifically, NRC
safety metrics and, as a result, the regions'        management has not updated agency guidance
administrative metrics have received limited         concerning the identification of official records
review by headquarters officials.                    and has not finalized other documents that will
                                                     provide valuable information on this subject to
     Management controls need improvement in         staff. Furthermore, NRC has not provided
the areas of continuity planning and protection      adequate training to staff on these subjects. As a
of sensitive information. In the event of an         result, offices approach records management
emergency, the agency needs improved                 inconsistently and may be failing to capture all
processes and procedures for transferring            official record material.
headquarters functions to an alternate site.
                                                           The audit also determined that NRC
     Each of the four regions needs improved         employees generally use the e-mail system for
security measures to adequately protect              official business or limited personal use in
sensitive information processed on its               accordance with agency policy. In contrast,
standalone systems. The absence of security          NRC contractors do not follow the Government-
controls over systems used to process classified     furnished information technology (IT)
and unclassified safeguards information              equipment usage policy. Contractors
increases the risk of loss, misuse, or               mistakenly believe that the
unauthorized access to information resources.        NRC employee
                                                     minimal-use
      OIG also identified regional best practices    policy
that should be considered for adoption by other      applies to
regions. (Addresses All Management                   them. In
Challenges)                                          addition,
                                                     contracting
Use of E-Mail at NRC                                 and project
                                                     officers
      Electronic mail (e-mail) is the term used to   neglected to
describe correspondence sent or received in          include
electronic form. E-mail has replaced the             required
telephone as the primary and preferred method        clauses
of business communication because it is faster       concerning
and cheaper than traditional methods. While          contractor
                                                                                                     11
October 1,2002-March
October 1,              31,2003
           2002 - March 31, 2003                                                                     I7I
                -

                                                                                          - -            -




The Audit Program (continued)


personal use of IT equipment in NRC contracts.      reducing the risk associated with their
As a result, contractors are not in compliance      operations. However, several areas need
with NRC policy, which was written to avoid         improvement. These areas include
recurrences of instances of inappropriate use of    administrative security controls, information
Government-furnished IT equipment by                technology controls, physical security controls,
contractors. None of the e-mail correspondence      safety controls, and supporting utilities. The
reviewed during the audit contained                 root cause of many of these deficiencies was the
inappropriate or prohibited material. (Addresses    lack of a system security officer at TIC.
Management Challenges#3 and #9)                     Because the report contains sensitive
                                                    unclassified information, the details of the areas
Computer Security Review at                         needing improvement are not available for
NRC's Technical TrainingCenter                      public dissemination. (Addresses Management
                                                    Challenge #9)
      The NRC's Technical Training Center
(TTC), located in Chattanooga, Tennessee,
provides training to meet the integrated NRC        AUDITS IN PROGRESS
staff needs in the curriculum areas of reactor
technology, probabilistic risk assessment,          Audit of NRC's Contract
engineering support, radiation protection, fuel     AdministrationPractices
cycle, security and safeguards, and regulatory
skills.                                                   During FY 2002, NRC obligated $96
                                                    million in contract actions, excluding
     The Office of Management and Budget            agreements with the Department of Energy
Circular A-130, "Management of Federal
                                                    (DOE). The Division of Contracts is esponsible
Information Resources," Appendix II requires
                                                    for (1) developing and implementing agency-
agencies to implement and maintain an
                                                    wide contracting policies and procedures and
automated information systems security
                                                    (2) providing advice and assistance to NRC pro-
program, including the preparation of policies,
                                                    gram officials regarding the Nuclear Regulatory
standards, and procedures. The Federal
                                                    Commission Acquisition Regulations, the
Information Security Management Act (FISMA)
                                                    Federal Acquisition Regulations, and methods
of 2002 outlines the information security
                                                    for meeting program objectives consistent with
management requirements for agencies. These
                                                    such regulations.
requirements include an independent evaluation
of an agency's information security program and          The objective of this audit is to review the
practices, and an evaluation of the effectiveness   economy, efficiency, and effectiveness of the
of information security control techniques. The     management controls included in the NRC's
FISMA also requires an assessment of                contract administration practices. The audit will
compliance with requirements and related            focus on (1) contract administration and
information security policies, procedures,          oversight of selected contracts and purchase
standards, and guidelines.                          orders, (2) acquisition workforce training,
                                                    (3) contract closeouts, and (4) contract audit
    The security review found that the controls     coverage. (Addresses Management
implemented by TIC are generally effective in
                                                    Challenge#4)



                                                                           NRC OIG Semiannual Report
12
12                                                                         NRC 01G Semiannual Report
Audit of NRC's Regulatory Oversight                 inspected include organizational structure,
of SpecialNuclear Materials                         qualifications and responsibilities, operational
                                                    activities, design and design control, review and
     NRC requires that its materials licensees      audit functions, radiation and environmental
establish and maintain material control and         protection, operator requalification,
accountability programs and allow for NRC to        maintenance and surveillance activities, fuel
inspect the materials, accounting controls, and     handling, experiments, procedures, emergency
premises where special nuclear material and         preparedness, and safeguards and security.
source materials are used or stored.                NRC conducts about 20 assessments of non-
                                                    power reactors annually with inspection
      Additionally, NRC requires that licensees     frequency based on the amount of nuclear
report information to the Nuclear Materials         material at the facility.
Management and Safeguards System
(NMMSS), a computer database managed by                  Because of the agency's focus on
the U.S. Department of Energy (DOE) and             commercial power reactors, there is concern that
jointly used with NRC for tracking certain          the research and test reactor program may not be
private-and Government-owned nuclear                receiving adequate attention, especially in the
materials.                                          current heightened security environment. The
                                                    audit's objective is to determine whether NRC's
     The objective of this audit is to determine    research and test reactor program is providing
whether NRC adequately ensures that its             adequate oversight of these facilities.
licensees account for and control special nuclear   (Addresses Management Challenges#1, 2,
material. (Addresses Management Challenges          and 7)
#1, 3, and 5)

                                                    Audit of NRC's Protectionof
Audit ofNRC's Research and                          Safeguards Information
Test ReactorProgram
                                                         Safeguards information is sensitive
      Research and test reactors are designed and   unclassified information that specifically
utilized for research, testing, and educational     identifies the detailed (1) security measures of a
purposes. NRC currently licenses 36 non-power       licensee or an applicant for the physical
reactors operating in 23 States. Fourteen others    protection of special nuclear materials or (2)
are being decommissioned. In contrast to            security measures for the physical protection
commercial nuclear power facilities, most non-      and location of certain plant equipment vital to
power reactors are located in urban areas,          the safety of production or utilization facilities.
primarily on university campuses. They              NRC established its Sensitive Unclassified
typically range in size from 0.10 watts to 20       Information Security Program to ensure that
megawatts (thermal). Most of these reactors         sensitive unclassified information is handled
have less than 1/1000th the power of a              appropriately and is protected from
commercial power reactor.                           unauthorized disclosure under pertinent laws,
     NRC inspects each facility periodically to     management directives, and applicable
ensure that programs are conducted in               directives of other Federal agencies and
accordance with license requirements. Areas         organizations.
                                                                                (continued on next page)

                                                                                                      13
October 1,2002 -March 31,2003
        1,2002-March  31, 2003                                                                        13
The Audit Program (continued)


      OIG is conducting this audit to determine     manual security controls, and (3) identify
whether NRC's program adequately ensures            problems that exist and make recommendations
protection of safeguards information, prevents      for corrective actions. (Addresses Management
its inappropriate release to the public and NRC     Challenges# 3 and 9)
employees who should not have access, and
adequately defines what constitutes safeguards      Follo wup Audit of NRC's Internet Usage
information. (Addresses Management
Challenge #9)                                             The objective of the audit is to assess the
                                                    effect of the agency's corrective actions since
ComputerSecurity Review at NRC's                    the prior audit was completed in October 2002.
Region I Office                                     The previous audit disclosed that over an 8 day
                                                    period in June 2001, between 52 percent and 79
     Located in King of Prussia, Pennsylvania,      percent of employee Internet usage was for
the NRC's Region I office operates under the        personal use. Some personal use was in direct
direction of the Regional Administrator and         violation of NRC policy. Because of the
covers an 1 -State area and the District of         amount of personal use and the occurrence of
Columbia, including 8 States with nuclear           prohibited activity, NRC needed to enforce and
power plants. Region I also regulates about         clarify its May 2001 information technology
1,725 licenses that use radioactive materials for   policy covering personal Internet use.
industrial, medical, and academic purposes.         (Addresses Management Challenge #3)

     OMB Circular A- 130, "Management of
                                                    Audit of NRC's PersonnelSecurity Program
Federal Information Resources," Appendix III
requires agencies to implement and maintain an           The Government personnel security system
automated information systems security              was established following World War II as a
program, including the preparation of policies,     means of supporting the information
standards, and procedures. The Federal              classification system and of implementing the
Information Security Management Act (FISMA)         Truman and Eisenhower Administrations'
of 2002 outlines the information security           programs to investigate the loyalty of Federal
management requirements for agencies. These         Government officials. Over the past half
requirements include an independent evaluation      century, a variety of directives and additional
of an agency's information security program and     regulations have been issued to tailor the system
practices and an evaluation of the effectiveness    to specific needs and respond to specific
of information security control techniques. The     concerns.
FISMA also requires an assessment of
compliance with requirements and related                  The goal of the personnel security process
information security policies, procedures,          is to determine whether past behavior is a matter
standards, and guidelines.                          of concern for future reliability. A security
                                                    clearance indicates that a person has been
     The objectives of this computer security       investigated and deemed eligible for access to
review are to (1) evaluate Region I's               classified information based on established
information security program and practices,         criteria set out in regulations. Before
(2) evaluate the effectiveness of automated and     prospective Federal employees and contractors



                                                                           NRC 010 Semiannual Report
 14
 14                                                                        NRC 01G Semiannual Report
who work in the national security arena can         The audit's objective is to determine
have access to national security information,   whether the program is effectively managed and
they must undergo an investigation and          achieves its goals. (Addresses Management
adjudication to determine whether they should   Challenge#9)
receive a security clearance.




October , 2002-March 31, 2003                                                               75
16   NRC OIG Semiannual Report
                   THE INVESTIGATIVE PROGRAM
    During this reportingperiod, OIG received 150 allegations,initiated64 investigations, and
completed 23 investigative and 2 Event Inquiries. In addition, OIG made 26 referralsof allegations
to NRC management.


INVESTIGATWE CASE SUMMARIES
NRC Regulation of Davis-Besse Regarding
Damage to the Reactor Vessel Head

      OIG completed an inquiry into concerns
raised by the Union of Concerned Scientists
(UCS) regarding a perceived lack of NRC
oversight of the Davis-Besse Nuclear Power
Station (DBNPS). In August 2001, the NRC
issued NRC Bulletin 2001-01 which sought to
have licensees shut down and perform
inspections by December 31, 2001, on plants
identified as being highly susceptible to vessel
head penetration nozzle cracking. UCS alleged
that NRC allowed DBNPS to continue operating
until February 16, 2002, without performing
those inspections despite indications of
significant cracking to the reactor vessel head.
                                                    Overview of the Davis-Besse reactor head
      As a result of this inquiry, 01G found that   inspection area.
NRC's decision to allow DBNPS to continue
operating until February 16, 2002, without
performing vessel head penetration nozzle                 0IG also found that NRC staff were reluctant
inspections was driven in large part by a desire    to take regulatory action against a licensee absent
to lessen the financial impact on the licensee      absolute proof of a violation, despite strong
that would result from an earlier shutdown.         indications that DBNPS did not comply with NRC
While the decision by the staff to allow DBNPS      regulations and plant technical specifications and
to continue to operate was consistent with          may have operated with reduced safety margins.
NRC's performance goal to reduce unnecessary        In addition, OIG found that the NRC staff
regulatory burden, it was contrary to NRC           developed a well-documented technical basis for
Bulletin 2001-01's intent that at-risk plants       preparing an order to shut down DBNPS, and on
conduct timely inspections to ensure that NRC       November 21, 2001, informed the Commission of
regulatory requirements related to reactor          the intent to shut down the plant on or before
coolant leakage were met.                                                        (continued on next page)
                                                                                                      17
October 1,2002 - March 31,2003
        1,2002-March   31, 2003                                                                        17
                                                                                                        -




The Investigative Program (continued)


December 31, 2001. However, contrary to the           are no longer performed as part of the baseline
strong justification present in the order, the NRC    or supplemental inspections at nuclear power
never forced a shutdown. Instead, the NRC staff       plants. (Addresses Management Challenge #1)
concluded that the licensee could safely operate
DBNPS until February 16, 2002, provided the           Unlawful InteractionBetween NRC and DOE
licensee implemented several compensatory             Staffs RegardingYucca Mountain
measures it had developed. OIG found that the
NRC staff did not document its analytical bases for         OIG conducted an investigation into
reaching this conclusion. (Addresses Management       allegations by the Attorney General of the State
Challenge#2)                                          of Nevada pertaining to Government activities
                                                      involving the Yucca Mountain nuclear waste
NRC's Regulatory Oversight Over the Control           repository site. Specifically, it was alleged that
of SpecialNuclearMaterialat Millstone Unit I          NRC and DOE representatives conducted
                                                      private meetings which, contrary to NRC
      OIG completed an inquiry concerning the         regulatory and policy mandates, excluded
reported loss of two spent nuclear fuel rods at       Nevada State representatives and members of
Millstone Nuclear Power Station Unit 1. In            the public. Moreover, it was alleged that these
November 2000, the NRC license holder for             private meetings violated restrictions placed on
Millstone Northeast Nuclear Energy Company            pre-licensing and ex-parte communications
discovered it could not locate two spent fuel         between NRC and a potential licensee. It was
rods which were last accounted for in 1978.           also alleged that NRC staff engaged in an
The OIG inquiry reviewed NRC oversight of the         inappropriate cooperative effort with DOE to
licensee's special nuclear material                   secure an opinion from the Office of
accountability program at Millstone Unit 1 from       Government Ethics (OGE) which adversely
the late 1970s to the present.                        affected the State of Nevada.

      As a result of this inquiry, OIG found that          As a result of this investigation, OIG
the missing fuel rods were last accounted for         determined that the NRC staff and DOE
during a 1978 Material Control and Account-           representatives were not involved in prohibited
ability (MC&A) inspection at Millstone Unit I         ex-parte communications, that excluded Nevada
conducted by the NRC. The purpose of the              State representatives and members of the public
inspection was to account for special nuclear         because the Yucca Mountain licensing process
material maintained by the licensee. The fuel         was not in the adjudicatory phase. The pre-
rods were no longer present in the spent fuel         licensing communications between the NRC
pool when the NRC conducted the next MC&A             and DOE representatives occurred during
inspection in 1982. However, OIG determined           informal meetings which were in accordance
that the NRC inspector did not identify the loss      with the pre-licensing phase of the application
of these fuel rods during the 1982 inspection         process and were consistent with NRC
because he relied on an inaccurate beginning          regulatory requirements and policy mandates.
inventory amount provided by the licensee             In addition, with respect to State of Nevada
instead of using the verified ending inventory        concerns pertaining to the OGE opinion, OIG
amount reflected in the NRC 1978 inspection           found that in January 2002, OGE
report. OIG also determined that the last             representatives contacted NRC and DOE staff in
MC&A inspection conducted at Millstone was            an effort to develop a consistent and
in 1982 and that since 1988, MC&A inspections         comprehensive policy for all executive branch
                                                                              NRC 010 Semiannual Report
18
78                                                                            NRC 01G Semiannual Report
agencies whose former employees might seek to      Exelon employee's attorney was not excluded
represent private parties concerning Yucca         by NRC staff from participating in NRC
Mountain. In July 2002, OGE issued official        enforcement proceedings because no formal
guidance to all executive branch agencies          enforcement meetings took place. In addition,
concerning Federal conflict-of-interest            OIG found that on October 3, 2002, NRC
restrictions as applied to the Yucca Mountain      issued a Confirmatory Order to Exelon which
licensing process. (Addresses Management           confirmed the licensee's commitment to train its
Challenge #5)                                      managers at all Exelon plants concerning NRC
                                                   requirements related to maintaining a safety
InappropriateHandling of an                        work environment.
EnforcementAction by Region III
                                                   Fraudby NVT Involving NRC
      OIG conducted an investigation into          CustodialContract
several concerns about the handling of an
enforcement action related to prohibited                OIG conducted an investigation into
employment discrimination by Exelon Nuclear        information provided by a former Nguyen Van
Generation Company, an NRC licensee. It was        Thanh Technologies (NVT) employee alleging
alleged that (1) NRC erred in settling the         that NVT failed to meet several contract
enforcement action in that the action violated     requirements involving preventive maintenance.
NRC's enforcement policy, (2) NRC ignored          NVT had a 5-year building maintenance
findings that an Exelon manager deliberately       contract with NRC in the amount of $5 million.
discriminated against an employee for engaging
in protected activity, and (3) NRC conducted             As a result of the investigation, OIG found
closed meetings with Exelon to discuss a           that the NVT project manager for the NRC
settlement of NRC's enforcement action without     contract instructed the former NVT employee to
the knowledge of the employee's attorney and       falsify entries in generator and fire pump log
contrary to promises made by NRC.                  books for the emergency lighting and fire sprinkler
                                                   systems at NRC headquarters buildings between
     As a result of the investigation, OIG         February 2000 and January 2001. These entries
determined that because the licensee admitted      made it appear that this safety equipment was
violating NRC regulations pertaining to            tested, as required by the NRC contract, when in
prohibited employment discrimination, NRC          fact such testing had not occurred.
exercised enforcement discretion and settled the
matter prior to holding an enforcement                  In March 2002, the project manager for
conference. OIG learned that while settlement      NVT and the corporation were indicted by a
of an enforcement action prior to holding an       Federal Grand Jury in the Southern District of
enforcement conference is unusual, this action     Maryland on 12 counts of violation of Title 18
was coordinated with NRC's Office of the           United States Code (USC), Section 1001, False
General Counsel and the Office of the Executive    Statements, and 18 USC, Section 2, Aiding and
Director for Operations. Additionally, OIG         Abetting. The indictments against the NVT
found that the settlement did not violate NRC's    project manager and NVT were subsequently
enforcement policy, because the enforcement        dismissed in lieu of a civil settlement by the
policy is silent regarding the timing of           U.S. Attorney's office.
negotiated settlements. OG also found that the
                                                                               (continued on next page)

                                                                                                     19
October 1,2002 - March
        1,2002 -
                       31, 2003
                 Mrch 31,  2003                                                                      19
The Investigative Program (continued)


INVESTIGATIVE STATISTICS
Source of Allegations - October 1,2002, through March 31, 2003


                               NRC Employee ( 1)    NRC Management
                                                             (30)
              Anonyrnous (I         9)                                Congressional (2)
                                                          shfibih,       Other Government
     Regulated Industry (8)                         1!1.1-1"-L -'11                Agency (1)
               Contractor 1) 1 l                                        Intervenor (7)



                                                              General Public
                            OIG nveshgation/       . .. .         (30)
                               Audit (40)          Media
                                                    (1)

                                                                                        Total 150



Dispositionof Allegations - October , 2002, through March 31, 2003




                                                                                                         iil




                                                                                                         'Z




                  ' i2 jL     :'4
                                     ' 11112
                                     `
                                        -1"                              II    I
                                                                                   2   "!j' I   :-   '


                                                                                                NRC OIG Semiannual Report
20
20                                                                                              NRC 01G Semionnal Report
Stratus of Investigations


   D0J Referrals                                                         16
   DOJ Declinations                                                      16

   NRC Administrative Actions:
     Terminations and Resignations                                          3
     Suspensions and Demotions                                              5
     Other Administrative Actions                                           5
     Counseling                                                             2




Summary of investiations
   Classification of                                 Opened   Closed   Cases In
   Investigations                        Carryover    Cases   Cases    Progress
   A -Conflict of interest                    2         2       3           1
    B -Internal Fraud                         1         8        1          8
   C-External Fraud                           3         5       2           6
    D-False Statements                        0         4       2           2
    E - Theft                                 0         1       0           1
    F - Misuse of Government Property         1        16       5        12
   G -Employee Misconduct                     0         1        1          0
   H - Management Misconduct                  0         3       2           1
     I- Technical Allegations   -Other        6        10       7           9
      -   whistleblower Reprisal              I         0       0           1
   Total Investigations                      14        50      23       4
     - Event nquiries                         3         1       2           2
   P-Special Projects                         0         1       0           1


                                                                                  21
October 1,2002-March
October 1,              31,2003
           2002 - March 31, 2003                                                  21
22   NRC OIG Semiannual Report
                                  OTHER AcTmIES
REGULATORY REVIEW                                               From October 1, 2002, through March 31,
                                                          2003, OIG reviewed about 200 agency
      Pursuant to the Inspector General Act, 5            documents, including approximately 100
U.S.C. App. 3, Section 4(a)(2), OIG reviews               Commission papers (SECYs) and 75 Federal
existing and proposed legislation, regulations,           Register Notices, regulatory actions, and
management directives, and policy issues and              statutes.
makes recommendations as appropriate
concerning their impact on the economy and                     During this period, several comments
efficiency of agency programs and operations.             focused on management and process issues
NRC agency directives requiring submission of             reflected in draft management directives. Other
all draft legislation, regulations, and policies to       significant comments related to recent changes
OIG facilitates this statutory review.                    and emphasis within agency security functions.

     The review encompasses issues raised in                 The most significant commentaries are
OIG investigations, audits, and prior regulatory          summarized below.
commentaries. In examining submitted                           Comments provided for MD 8.17,
documents reflecting regulatory, statutory, and           "Licensee's Complaint Against NRC
policy actions, the regulatory review program's           Employees," emphasized the requirement that
main objective is to examine agency actions to            all instances of misconduct must be promptly
assist in the elimination of fraud, waste, and            reported to the Inspector General. Advice
abuse within the agency. In addition, comments            provided after review of draft MD 8.18, "NRC
are also used to address issues related to            -   Generic CommunicationsProgram," conveyed
preserving OIG's independence and integrity               the importance of having all relevant direction
under the office's statutory precept. Comments            contained in a single reference. In this case,
are made through formal memoranda as well as              OIG recommended that a copy of the Committee
during meetings and discussions.                          to Review Generic Requirements Charterbe
     As stated in the objectives section of               included in the directive.
Management Directive (MD) 1.1, the purpose of                  Remarks provided for MD 4.8,
the NRC Management Directive System is to                 "PerformanceMeasurement," related that
effectively communicate policies, objectives,             greater specificity was needed. In addition, the
responsibilities, authorities, requirements,              need for consistency among the regional offices
guidance, and information to NRC employees.               was discussed. Similarly, the OIG provided
Specific direction is a critical element in               specific guidance as to areas requiring
avoiding fraud and abuse in agency programs               additional clarification and expansion.
and operations. Therefore, the NRC OIG
expends significant effort in reviewing and                                            (continued on next page)
commenting on management directives.


                                                                                                            23
        1,2002-March
October 1,             31,2003
          2002 - March 31, 2003                                                                             23
Other Activities (continued)


     MD 11.1, "Acquisition of Supplies and              The strategic plan will serve to strengthen
Services," was recently revised. OIG comments      the office by establishing a shared set of
included suggestions for additional direction on   expectations regarding what we expect to
contract audit procedures.                         achieve and the strategies that we will use to do
                                                   so. We will adjust the plan as circumstances
     Significant and new initiatives in the area
of security were the subject of two comments.      necessitate and will use it to develop our annual
The agency drafted a comprehensive statement       plan and budget submission, report on progress
on "Information Systems Security Incident          in our semiannual reports, and hold our
Response Processing" to identify critical          managers and staff accountable for achieving
positions and their responsibilities and to        the goals and outcomes.
formalize processes to be employed when
security incidents occur. OIG comments                  In a "best case" scenario, we would
provided additional information and guidance       identify the major risks confronting the NRC
as to reference sources for additional contacts    and focus all of our resources on mitigating
within the Federal Government and suggested        them. The reality, however, is that a
inclusion of the OIG Duty Agent in the contact     considerable percentage of OIG resources are
structure.                                         devoted to required activities such as auditing
                                                   the NRC financial statements, responding to
     Also in the security area, OIG commented      potential wrongdoing by conducting
on revision to MD 12.2, "NRC Classified            investigations, and responding to information
Security Program." In this instance, OIG and       requests from the NRC, Congress, and the
agency managers worked together to clarify the     public. As a result, the level of resources that
classification and delegation authority of         OIG can devote to key priorities is constrained.
individuals identified in the directive.
                                                         The OIG has shaped a strategic plan that
                                                   aligns itself with NRC's mission and strategic
NRC OIG STRATEGIC PLAN                             goals. We have identified major challenges and
                                                   risk areas facing the NRC and are developing
      The NRC OIG is currently updating its
                                                   strategic goals based on that analysis. As a
strategic plan. As part of the update process,
                                                   result of this alignment, audit and investigative
OIG identified the strategic challenges facing
NRC. To identify these strategic challenges,       resources will focus on adding value to NRC
OIG considered information provided during the     technical and administrative programs. This
office's annual planning conferences, the          will be done by identifying opportunities for
Inspector General's updated assessment of the      improvement in the agency and conducting
most serious management challenges facing the      activities to prevent and detect fraud, waste,
NRC, the NRC Chairman's parallel effort to         mismanagement, and inefficiency in NRC
identify the agency's management challenges,       programs and operations. The work of OIG
and recent work completed by OIG's audit and       auditors and investigators support and complement
investigative units.                               each other in the pursuit of these objectives.




                                                                          NRC 010 Semiannual Report
24
24                                                                        NRC OIG Semiannual Report
PCIE/ECIEAWARD OF
EXCELLENCE FOR
ADMINISTRATIVE SUPPORT
      Alicia Penaherrera, Administrative
Assistant for the NRC OIG, was a recipient of
the first President's Council on Integrity &
Efficiency/Executive Council on Integrity &
Efficiency (PCIE/ECIE) Award of Excellence
for Administrative Support. In her role as
Administrative Assistant for OIG, Ms.
Penaherrera provides comprehensive oversight
of every aspect of the office administrative
program. She thoroughly and completely
provides a sought-for consistency and reliability
in both generic and complex administrative          Alicia Penaherrera with Inspector General
procedures.                                         Hubert T Bell

      Ms. Penaherrera creatively seeks solutions    interest to those who interact with the OIG,
to emerging administrative difficulties and         thereby promoting a positive, professional
issues. She is always ready to step in and assist   image for the office.
in the preparation of office critical reports,
despite her extensive day-to-day                         The award, which consisted of a special
responsibilities. She is recognized as a mainstay   plaque with a citation, was presented at the
in the effective operation of the OIG. Without      annual PCIE/ECIE Annual Awards Ceremony
exception, she completes her varied assignments     on October 30, 2002. The citation read, "For
professionally, effectively, and efficiently. In    exceptional support and oversight of all
her frequent role as the voice of the OIG, she      administrative and clerical responsibilities in the
displays a tone of competence and genuine           Office of the Inspector General."




                                                                                                     25
October 1,2002-March
        1,2002 - March 31, 2003
                       31, 2003                                                                      25
26   NRC OIG Semiannual Report
                                   APPENDICES


AUDIT USTINGS
InternalProgramAuditand SpecialEvaluation Reports
Date          Title                                                   Audit Number

10/17/02      Review of NRC's Handling and Marking of Sensitive       OIG-03-A-01
              Unclassified Information

11/18/02      Memorandum Report: Inspector General's Assessment       OIG-03-A-02
              of the Most Serious Management Challenges

12/11/02      QIG 2002 Survey of NRC's Safety Culture and Climate     OIG-03-A-03

01/24/03      Results of the Audit of the U.S. Nuclear Regulatory .   OIG-03-A-04
              Commission's Fiscal Year 2002 Financial Statements

02/14/03      Memorandum Report - Review of NRC's Implementation      OIG-03-A-05
              of the Federal Managers' Financial Integrity Act for
              Fiscal Year 2002

02/26/03      Management Audit of Region    I                         OIG-03-A-06
              Management Audit of Region    II                        OIG-03-A-07
              Management Audit of Region      I                       OIG-03-A-08
              Management Audit of Region    IV                        OIG-03-A-09

02/26/03    * Headquarters Action Needed on Issues Identified from    0IG-03-A-10
              Regional Audits

03/21/03      Use of E-Mail at NRC                                    OIG 03-A-lI

03/21/03      Computer Security Review at NRC's Technical             OIG-03-A-12
              Training Center




                                                                                    27
October 1,2002-March
October                 31, 2003
        1, 2002 - March 31, 2003                                                    27
                                                                                           I~




ContractAudit Reports
   OIG               Contractor/                       Questioned        Funds Put to
Issue Date         Contract Number                       Costs            Better Use
10/08/02         Jack Faucett Associates
                 NRC-10-93-138                             0                   0
11/12/02         Southwest Research Institute
                 NRC-02-01-005                             0                   0
                 NRC-02-97-001                             0                   0
                 NRC-02-97-009                             0                   0
                 NRC-02-98-002                             0                   0
                 NRC-02-98-007                             0                   0
11/12/02         Sytel, Inc.
                 NRC-33-96-194                             0                   0
03/13/03         Stone and Webster Engineering Corp.
                 NRC-03-96-025                             0                   0
                 NRC-03-96-027                             0                   0
03/13/03         Stone and Webster Engineering Corp.
                 NRC-03-96-025                             0                   0
                 NRC-03-96-027                             0                   0
03/13/03         Stone and Webster Engineering Corp.
                 NRC-03-96-025                             0                   0
                 NRC-03-96-027                             0                   0
03131/03         Ruland Associates, Inc.
                 NRC-33-98-180                             0                   0




                                                               NRC QIG Semiannual Report
28                                                             NRC OIG Semiannual Reporl
AUDIT TABLES
     Duringthis reportingperiod, OIG analyzed seven contractaudit reports issued by the DCAA.

Table I. Post-Award Findings

                            OIG Reports ContainingQuestioned Costs
                              October 1,2002 - March 31, 2003

                                                               Questioned        Unsupported
                                                 Number of        Costs             Costs
Reports                                           Reports       (Dollars)         (Dollars)
A.   For which no management decision
     had been made by the commencement
     of the reporting period                         0              0                  0
B.   Which were issued during the
     reporting period                                0               0                 0
     Subtotal (A +B)                                 0              0                  0
C.   For which a management decision was
     made during the reporting period:
     (i) dollar value of disallowed costs            0               0                 0
     (ii) dollar value of costs not disallowed       0               0                 0
D.   For which no management decision
     had been made by the end of the
     reporting period                                0              0                  0
E.   For which no management decision was
     made within 6 months of issuance                1           $38,433          $3,606,365




                                                                                                29
October 1,2002-March
October               31,2003
        1, 2002-March 31, 2003                                                                  29
                                                                             ---   ---   L   --




Table 1l. Pre-Award Findings

                         OIG Reports ssued with Recommendations
                              That Funds Be Put to Better Use
                            October 1,2002 - March 31, 2003

                                                  Number of        Dollar Value
Reports                                            Reports          of Funds
A.   For which no management decision                0                   0
     had been made by the commencement
     of the reporting period
B.   Which were issued during the                    0                   0
     reporting period
     Subtotal (A + B)                                0                   0
C.   For which a management decision was
     made during the reporting period:
     (i) dollar value of recommendations             0                   0
         that were agreed to by management
     (ii) dollar value of recommendations            0                   0
          that were not agreed to by management
D.   For which no management decision had            0                   0
     been made by the end of the reporting
     period
E.   For which no management decision was            0                   0
     made within 6 months of issuance




                                                                  NRC 010 Semiannual Report
30                                                                NRC 01G Sermionnuol Report
ABBREVIATIONS

CFR              Code of Federal Regulations
DBNPS            Davis-Besse Nuclear Power Station
DCAA             U.S. Defense Contract Audit Agency
DOE              U.S. Department of Energy
FFMLA            Federal Financial Management Improvement Act of 1996
FISMA            Federal Information Security Management Act
FMFIA            Federal Managers' Financial Integrity Act
FY               Fiscal Year
GC               General Counsel (OIG)
IG               Inspector General
IT               information technology
MC&A             Material Control and Accountability
MD               Management Directive
NRC              U.S. Nuclear Regulatory Commission
NMMSS            Nuclear Materials Management and Safeguards System
NVT              Nguyen Van Thanh Technologies
OGE              U.S. Office of Government Ethics
OIG              Office of the Inspector General (NRC)
OMB               U.S. Office of Management and Budget
PCIE/ECIE        President's Council on Integrity & Efficiency/Executive Council on
                 Integrity & Efficiency
RMOS              Resource Management and Operations Support (NRC OIG)
SDP               significance determination process
TTC              Technical Training Center (NRC)
UCS               Union of Concerned Scientists
USC               United States Code



                                                                                      31
October 1,2002-March    31,2003
         , 2002 - March 3, 2003                                                       31
                                                                                                                    I~




REPORTING REQUIREMENTS INDEX
     The Inspector GeneralAct of 1978, as amended (1988), specifies reportingrequirementsfor
semiannual reports. This index cross-references those requirements to the applicablepages where
they arefulfilled in this report.


CITA11ON            REPOR17NG REQUIREMENTS                                                                PAGE

Section 4(a)(2)     Review of Legislation and Regulations......................................................23
Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies.......................... 5-12, 17-19
Section 5(a)(2)     Recommendations for Corrective Action ....................................... 5-12
Section 5(a)(3)     Prior Significant Recommendations Not Yet Completed .......................... None
Section 5(a)(4)     Matters Referred to Prosecutive Authorities ..........................                    19
Section 5(a)(5)     Information or Assistance Refused ..........................                           None
Section 5(a)(6)     Listing of Audit Reports ..........................                                       27
Section 5(a)(7)     Summary of Significant Reports .........                  ................. 5-12, 17-19
Section 5(a)(8)     Audit Reports    -   Questioned Costs ..........................                          29
Section 5(a)(9)     Audit Reports - Funds Put to Better Use ..........................                        30
Section 5(a)(10) Audit Reports Issued Before Commencement of the Reporting
                 Period for Which No Management Decision Has Been Made ................None
Section 5(a)(1 1) Significant Revised Management Decisions ....................................... None
Section 5(a)( 12) Significant Management Decisions With Which
                  the OIG Disagreed .......................................                                None




32                                                                                     NRC 0IG Semiannual Report
                         THE NRC OIG HOTLINE
The Office of the Inspector General at NRC established the Hotline Program to provide
NRC employees, other Government employees, licensee/utility employees, contractors
and the public with a confidential means of reporting suspicious activity to the OIG
concerning fraud, waste, abuse, employee or management misconduct. Mismanagement
of agency programs or danger to public health and safety may also be reported through
the Hotline.

We do not attempt to identify persons contacting the Hotline. Persons may contact the
OIG by telephone, through an on-line form, via the NRC public Web site www.nrc.gov
or by mail. There is no caller identification feature associated with the Hotline or any
other telephone line in the Inspector General's office. No identifying information is
captured when you submit an on-line form. You may provide your name, address, or
phone number, if you wish.

What should be reported:
* Contract and Procurement           *  Abuse of Authority
  Irregularities                     *  Misuse of Government Credit Card
* Conflicts of Interest              *  Time and Attendance Abuse
* Theft and Misuse of Property       *  Misuse of Information Technology
* Travel Fraud                          Resources
* Misconduct                          * Program Mismanagement

Call:         OIG Hotline
              1-800-233-3497
              9:00 a.m. - 4:00 p.m. (EST)
              After hours, please leave a message

Submit:       On-Line Form
              Access by: logging onto www.nrc.gov
              Click on Inspector General
              Click on OIG Hotline phone symbol

or Write:     U.S. Nuclear Regulatory Commission
              Office of the Inspector General
              Hotline Program
              Mail Stop T-5 D28
              11545 Rockville Pike
              Rockville, MD 20852-2738
               S   S   r




-,   J<r




           4
